IN THE
SUPREME COURT OF THE UNITED STATES
x

AFFIDAVIT OF SERVICE

VUGO,INC.

LAW NO.: 2015-047537

Petitioner,
V

CITY OF NEW YORK,
Respondent.

X
STATE OF NEW YORK
. : SS.:

Cortrice Jones, duly sworn deposes and

1.
2.

says that:

The deponent is not aparty to the action and is 18 years of age or older.
On March 20thr2020 the deponent served the annexed Brief in Opposition upon

the following person or persons:

Jeffery Michael Schwab
Liberty Justice Center
190 South LaSalle Street, Suite 1500
Chicago, IL 60603
J

The number of copies served on each of said persons was

4

The method of service on each of said persons was:

3

By mailing the paper to the person at the address designated by him or her for that purpose by
depositing the same in a first class, postpaid, properly addressed wrapper, in a post office or
official depository under the exclusive care and custody of the United States Postal Service
within the State of New York pursuant to CPLR 2103(b) (2).

J ones
Sworn to before me this

